TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Fiscal Year 2006 Statutory Audit of
                       Compliance With Legal Guidelines
                      Restricting the Use of Records of Tax
                               Enforcement Results



                                             June 2006

                              Reference Number: 2006-40-095




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 6, 2006


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2006 Statutory Audit of Compliance
                               With Legal Guidelines Restricting the Use of Records of Tax
                               Enforcement Results (Audit # 200540038)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with established procedures to implement the legal guidelines set forth in IRS
 Restructuring and Reform Act of 1998 (RRA 98) Section 1204.1

 Synopsis
 RRA 98 Section 1204(a) prohibits the IRS from using any record of tax enforcement results
 (ROTER) to evaluate employees or to impose or suggest production quotas or goals.
 Section 1204(c) requires each appropriate supervisor
 to certify quarterly whether tax enforcement results
                                                          First-line managers followed
 were used in a prohibited manner. The Treasury               RRA 98 Section 1204
 Inspector General for Tax Administration is required       provisions for evaluating
 under Internal Revenue Code Section 7803(d)(1)                     employees.
 (2000) to annually evaluate the IRS’ compliance with
 the provisions of RRA 98 Section 1204.
 To evaluate compliance with RRA 98 Section 1204, we selected a random sample of
 10 first-line managers and 4 employees for each of these managers in 5 metropolitan areas for a




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                     Fiscal Year 2006 Statutory Audit of
                                Compliance With Legal Guidelines Restricting
                               the Use of Records of Tax Enforcement Results


total of 50 managers and 200 employees.2 We evaluated Fiscal Year 2005 performance
evaluation documentation (including midyear and annual performance reviews, award
documentation, and workload reviews) for each employee to determine whether ROTERs were
used when evaluating the employees’ performance.
The first-line managers we sampled complied with RRA 98 Section 1204. They did not use
ROTERs or production quotas or goals when evaluating employees. They also appropriately
certified that they had not used tax enforcement results in a prohibited manner. The first-line
managers we sampled worked for the IRS Small Business/Self-Employed Division, the Wage
and Investment Division, and the Chief, Appeals. Based on the results of our sample, we believe
the IRS’ efforts to ensure managers are not using ROTERs or production goals or quotas to
evaluate employees are generally effective and are helping to protect the rights of taxpayers.

Response
IRS management has reviewed the draft report and provided their concurrence with its contents
via email. Since there were no recommendations requiring a formal response, the IRS agreed
that the report will be issued with no formal written response.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




2
 These were employees in jobs for which RRA 98 Section 1204 would be applicable. We determined the number
of first-line managers to sample in each business unit based on their proportional representation in the metropolitan
area. A random sample was then taken of the first-line managers in each represented business unit.
                                                                                                                        2
                                         Fiscal Year 2006 Statutory Audit of
                                    Compliance With Legal Guidelines Restricting
                                   the Use of Records of Tax Enforcement Results




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          First-Line Managers Complied With the Law Restricting the Use of
          Enforcement Statistics ..................................................................................Page 4
          First-Line Managers Appropriately Completed Their Self-Certifications....Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Prior Audit Reports ..............................................................Page 10
                                   Fiscal Year 2006 Statutory Audit of
                              Compliance With Legal Guidelines Restricting
                             the Use of Records of Tax Enforcement Results




                                          Background

On July 22, 1998, the President signed the Internal Revenue Service (IRS) Restructuring and
Reform Act of 1998 (RRA 98) into law.1 RRA 98 Section 1204 restricts the use of enforcement
statistics. Specifically, RRA 98 Section 1204(a) prohibits the IRS from using any record of tax
enforcement results (ROTER) to evaluate employees or to impose or suggest production quotas
or goals.
The IRS defines ROTERs as data, statistics, compilations of information, or other numerical or
quantitative recording of the tax enforcement results reached
in one or more cases. A ROTER does not include                      RRA 98 Section 1204
evaluating an individual case to determine if an employee       prohibits the IRS from using
exercised appropriate judgment in pursuing enforcement of        tax enforcement results or
the tax laws. Examples of ROTERs include the amount of          production   goals or quotas
dollars collected or assessed, the number of fraud referrals,      to evaluate employees.
and the number of seizures conducted.
RRA 98 Section 1204(c) requires each appropriate supervisor to perform a self-certification
quarterly. In the self-certification, the appropriate supervisor attests to whether ROTERs or
production quotas or goals were used in a prohibited manner. The IRS defines an appropriate
supervisor as the highest ranking executive in a distinct organizational unit that supervises
directly or indirectly one or more Section 1204 enforcement employees.2 IRS procedures require
that, beginning with first-line managers of Section 1204 employees, each level of management
self-certify that they have not used ROTERs in a manner prohibited by RRA 98 Section 1204(a).
The appropriate supervisor is then to prepare a consolidated office certification covering the
entire organizational unit.
IRS business units and functions, including the Small Business/Self-Employed (SB/SE)
Division, the Wage and Investment (W&I) Division, and the Office of the Chief, Appeals
(Appeals function), are responsible for Section 1204 program implementation within their
respective areas. Section 1204 Program Managers and Section 1204 Coordinators in each
division and function are available to provide guidance to managers regarding Section 1204
issues, including the certification process.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement employee (Section 1204 employee) is an employee or any first-line manager of an employee who
exercises judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax
laws or who provides direction/guidance for Section 1204 program activities.
                                                                                                      Page 1
                                      Fiscal Year 2006 Statutory Audit of
                                 Compliance With Legal Guidelines Restricting
                                the Use of Records of Tax Enforcement Results



                   Figure 1: Percentage of Section 1204 First-Line Managers
                                       October 1, 2005


           1800

           1600
                                    1,721
           1400                     (79%)
                                                      1,502
           1200                                       (65%)

           1000
             800
                                                               798
             600                                              (35%)
                                                                                          124
             400             447                                                   37    (77%)
                            (21%)                                                (23%)
             200
               0
                            SB/SE                      W&I                     Appeals

                              Number of Non-Section 1204 First-Line Managers
                              Number of Section 1204 First-Line Managers
       Source: Analysis of IRS HR Connect3 and Division Quarterly Listings of Section 1204 Managers, as of
       October 1, 2005.

As shown in Figure 1, as of October 1, 2005, approximately 79 percent of the first-line managers
in the SB/SE Division and 77 percent of the first-line managers in the Appeals function were
designated as Section 1204 managers. The managers either supervised a Section 1204 employee
or provided guidance or direction for Section 1204 activities. In contrast, only approximately
35 percent of the W&I Division first-line managers were designated as Section 1204 managers.
Internal Revenue Code Section 7803(d)(1) (2000) requires the Treasury Inspector General for
Tax Administration to determine annually whether the IRS is in compliance with restrictions on
the use of enforcement statistics under RRA 98 Section 1204. We have previously performed
seven mandatory reviews of the IRS’ use of enforcement statistics in employee evaluations.
These reports are listed in Appendix IV.




3
    HR Connect is the Department of the Treasury’s primary human resources system.
                                                                                                         Page 2
                               Fiscal Year 2006 Statutory Audit of
                          Compliance With Legal Guidelines Restricting
                         the Use of Records of Tax Enforcement Results



This review was performed at the IRS National Headquarters in Washington, D.C., in the offices
of the Chief Financial Officer, the SB/SE Division Headquarters, and the Appeals function and
in the W&I Division Headquarters in Atlanta, Georgia, during the period September 2005
through April 2006. In addition, the review was performed at the IRS field offices of the
SB/SE Division, the W&I Division, and the Appeals function in the Atlanta, Georgia;
Austin, Texas; Denver, Colorado; Memphis, Tennessee; and Oakland, California, metropolitan
areas. The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                        Page 3
                                     Fiscal Year 2006 Statutory Audit of
                                Compliance With Legal Guidelines Restricting
                               the Use of Records of Tax Enforcement Results




                                       Results of Review

First-Line Managers Complied With the Law Restricting the Use of
Enforcement Statistics
To evaluate the IRS’ compliance with Section 1204(a), which prohibits the use of enforcement
statistics to evaluate employee performance, we selected a random sample of 10 first-line
managers and 4 employees for each of these managers in 5 metropolitan areas for a total of
50 managers and 200 employees.4 The number of first-line managers selected from each
business unit was based on the proportional representation of IRS business units in the
metropolitan area. We evaluated Fiscal Year 2005 performance evaluation documentation
(including midyear and annual performance reviews, award documentation, and workload
reviews) for each employee to determine whether ROTERs were used when evaluating the
employees’ performance.
The 50 first-line managers in our sample followed the provisions of RRA 98 Section 1204(a)
when evaluating employees. The managers we sampled worked in the SB/SE Division, the
W&I Division, and the Appeals function. They had not used ROTERs or production quotas or
goals when documenting the performance of the 200 Section 1204 employees we sampled.
Furthermore, to evaluate whether the managers had been provided proper guidance and
understood the requirements of RRA 98 Section 1204, we interviewed 15 of the 50 managers
selected for this review. These first-line managers stated that they understood what constituted
ROTERs, production goals, and quotas when documenting their employees’ performance. They
also stated that they were reminded of their Section 1204(a) responsibilities during managers’
meetings and training classes.
Based on the results of our sample, we believe the IRS’ efforts to ensure managers are not using
ROTERs or production goals or quotas to evaluate employees are generally effective and are
helping to protect the rights of taxpayers.




4
 These were employees in jobs for which RRA 98 Section 1204 would be applicable. We determined the number
of first-line managers to sample in each business unit based on their proportional representation in the metropolitan
area. A random sample was then taken of the first-line managers in each represented business unit.
                                                                                                              Page 4
                                 Fiscal Year 2006 Statutory Audit of
                            Compliance With Legal Guidelines Restricting
                           the Use of Records of Tax Enforcement Results



First-Line Managers Appropriately Completed Their Self-Certifications
The first-line managers we sampled complied with the provisions of RRA 98 Section 1204(c) by
completing the required self-certifications on the use of tax enforcement results. Each manager
certified that ROTERs or production goals or quotas were not used when evaluating employees.
       Figure 2: RRA 98 Section 1204 Manager’s Quarterly Self-Certification




Source: The Internal Revenue Manual.

RRA 98 Section 1204(c) requires appropriate supervisors to certify quarterly in writing to the
IRS Commissioner whether ROTERs and production quotas or goals were used in a prohibited
manner. To do this, the IRS required managers who evaluated Section 1204 employees to certify
in writing that they did not:
   •   Use ROTERs to evaluate employees or to impose or suggest production quotas or goals
       for employees in any performance evaluations, including appraisals, awards, or
       promotion justifications, written or reviewed by the manager.
   •   Verbally communicate to employees that ROTERs affected their evaluations.
   •   Verbally or in writing use ROTERs to impose or suggest production quotas or goals for
       employees or for work unit activities (e.g., through program guidance or business and
       program reviews).
Per the Internal Revenue Manual, the business units’/functions’ Section 1204 Program Managers
and their respective Section 1204 Coordinators should monitor the quarterly certification process
throughout their organizations. The Program Managers’ and Section 1204 Coordinators’ duties
included providing guidance to managers regarding Section 1204 issues.
Through the quarterly certification process, managers were reminded of their responsibilities
under RRA 98 Section 1204 not to evaluate their employees on the basis of ROTERs or
production quotas or goals. This helped to ensure managers were aware of the IRS’ commitment
to administer the tax laws fairly and to protect the rights of taxpayers.

                                                                                          Page 5
                                   Fiscal Year 2006 Statutory Audit of
                              Compliance With Legal Guidelines Restricting
                             the Use of Records of Tax Enforcement Results



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) complied with established procedures to implement the legal guidelines set forth in IRS
Restructuring and Reform Act of 1998 (RRA 98) Section 1204.1 To accomplish this objective,
we:
I.      Determined whether a sample of the IRS first-line managers in the
        Small Business/Self-Employed (SB/SE) Division, the Wage and Investment (W&I)
        Division, and the Office of the Chief, Appeals (Appeals function) complied with the
        provisions of RRA 98 Section 1204(a) when evaluating their Section 1204 employees’2
        performance.
        A. Identified Fiscal Year (FY) 2005 and ongoing procedures to ensure IRS compliance
           with the provisions of RRA 98 Section 1204(a) for first-line managers and their
           employees by interviewing IRS management and reviewing the Internal Revenue
           Manual, IRS memoranda, and the IRS Intranet web site. This included interviewing
           selected IRS business unit Section 1204 Program Managers and Coordinators to
           identify any additional written documentation and guidance that may have been used
           to direct the evaluation of Section 1204 managers and employees.
        B. Identified SB/SE Division, W&I Division, and Appeals function locations in various
           cities and the surrounding metropolitan areas and the number of Section 1204
           first-line managers and employees located at each area. We judgmentally selected
           five metropolitan areas for this year’s audit – Atlanta, Georgia; Austin, Texas;
           Denver, Colorado; Memphis, Tennessee; and Oakland, California. We considered the
           enforcement employee population disbursement, geographic coverage, and prior audit
           coverage in selecting the five audit sites.
        C. Selected a random sample of 10 first-line managers and 4 Section 1204 employees for
           each manager in each of the 5 metropolitan areas. We determined the number of
           first-line managers to sample in each business unit based on their proportional
           representation in the metropolitan area. A random sample was then taken of the
           first-line managers in each represented business unit. The number of first-line

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement employee (Section 1204 employee) is an employee or any first-line manager of an employee who
exercises judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax
laws or who provides direction/guidance for Section 1204 program activities.
                                                                                                      Page 6
                               Fiscal Year 2006 Statutory Audit of
                          Compliance With Legal Guidelines Restricting
                         the Use of Records of Tax Enforcement Results



         managers selected from each business unit was based on the proportional
         representation of the business units in the metropolitan area. This provided a total of
         50 managers and 200 employees for review.
      D. Obtained and reviewed FY 2005 performance evaluation documentation (including
         midyear and annual performance reviews, award documentation, and workload
         reviews) for each employee to determine whether the use of any record of tax
         enforcement results (ROTER) or production goals or quotas was documented.
II.   Determined whether selected first-line managers complied with RRA 98 Section 1204(c)
      by certifying by letter whether ROTERs were used in a manner prohibited by RRA 98
      Section 1204(a).
      A. Identified procedures used to ensure compliance with provisions of
         RRA 98 Section 1204(c) by interviewing IRS management and reviewing the Internal
         Revenue Manual, IRS memoranda, and the IRS Intranet web site. This included
         interviewing Section 1204 Program Managers and Coordinators to identify any
         additional written documentation and guidance that may have been used to direct the
         Section 1204 certification process.
      B. Obtained FY 2005 fourth quarter self-certifications for the selected first-line
         managers.
      C. Reviewed the self-certifications for compliance with IRS procedures and the
         identification of any use of ROTERs or production quotas or goals.
      D. At each site, interviewed 1 judgmentally selected first-line manager from each
         business unit (for a total of 15 managers). We considered the geographic
         disbursement and the manager’s business unit when selecting the 15 managers. We
         determined whether:
         1. The manager maintained a copy of his or her FY 2005 fourth quarter
            self-certification.
         2. Any additional written or verbal guidance was provided by business unit/function
            management on the prohibited use of enforcement statistics.
         3. The manager had any concerns about what constituted a ROTER or production
            goals or quotas.
         4. The manager had received formal training on Section 1204 restrictions and his or
            her responsibilities.
         5. The manager ever reported the use of ROTERs or the use of production goals or
            quotas and, if so, the circumstances surrounding their use.


                                                                                           Page 7
                              Fiscal Year 2006 Statutory Audit of
                         Compliance With Legal Guidelines Restricting
                        the Use of Records of Tax Enforcement Results



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
James D. O’Hara, Audit Manager
William Simmons, Acting Audit Manager
Cindy J. Harris, Lead Auditor
Tanya L. Boone, Senior Auditor
Gwendolyn M. Green, Senior Auditor
Sharon Summers, Senior Auditor
James M. Traynor, Senior Auditor




                                                                                    Page 8
                              Fiscal Year 2006 Statutory Audit of
                         Compliance With Legal Guidelines Restricting
                        the Use of Records of Tax Enforcement Results



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief Financial Officer OS:CFO
Director, Assistance and Review OS:CFO:AR
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
   Chief, Appeals AP:TP:SS
   Chief Financial Officer OS:CFO
   Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 9
                              Fiscal Year 2006 Statutory Audit of
                         Compliance With Legal Guidelines Restricting
                        the Use of Records of Tax Enforcement Results



                                                                             Appendix IV

                             Prior Audit Reports

The Treasury Inspector General for Tax Administration has previously performed seven
mandatory audits in this subject area. These audits were:
   Fiscal Year 2005 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2005-40-157, dated
   September 2005).
   Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2004-40-066, dated
   March 2004).
   Fiscal Year 2003 Statutory Audit of Compliance With Legal Guidelines Restricting the
   Use of Records of Tax Enforcement Results (Reference Number 2003-40-090, dated
   March 2003).
   Compliance With Regulations Restricting the Use of Records of Tax Enforcement
   Results Shows Improvement (Reference Number 2002-40-163, dated September 2002).
   Compliance With the Internal Revenue Service Restructuring and Reform Act of 1998
   Section 1204 Has Not Yet Been Achieved (Reference Number 2001-10-178, dated
   September 2001).
   Further Improvements Are Needed in Processes That Control and Report Misuse of
   Enforcement Statistics (Reference Number 2000-10-118, dated September 2000).
   The Internal Revenue Service Should Continue Its Efforts to Achieve Full Compliance
   with Restrictions on the Use of Enforcement Statistics (Reference
   Number 1999-10-073, dated September 1999).




                                                                                       Page 10
